WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United StateS

JUL 1 1 2019

OFFICE OF THE CLERK

No. 19-24
-v.

Jack-Rose, et ux.
(Petitioners)

David Reaves, Chapter 7_Trustee
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
❑ Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a
the respons

r of t

Court. Should a response be requested,

Signature

July 10,

Date:

(Type or print) Name John R.
Mr.
Firm

Worth, Esq.
OMs.

Mrs.

0 Miss

Forrester & Worth, PLLC

Address

2800 N. Central Ave., Ste. 1200

City & State
Phone

Phoenix, AZ 85004

Zip

602.258.2728

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Tony Freeman
Patrick Jones
Freeman Law, PLLC
4248 North Craftsman Court, Suite 100
Scottsdale, AZ 85251

RECEIVED
JUL 2 2 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.'

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

Forrester & Worth, PLLC

July 11, 2019

Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Regarding: IMO Jack Rose, et ux. v. David Reaves, Chapter 7 Trustee
Supreme Court Case no. 19-24
Dear Clerk or Deputy Clerk:
Here is the original and a copy of my Waiver. Please file the original and return a
conformed copy to me in the self-addressed, stamped envelope that is also
enclosed. Thank you.
Very truly yours,

JRW/mdb
End.

RECEIVED
JUL 2 2 2019
John R. Worth
DIRECT (602) 258-2728 I MAIN (602) 258-2729 I jrw@forresterandworth.com
2800 NORTH CENTRAL AVENUE I SUITE 1200 I PHOENIX, ARIZONA 85004
www.forresterandworth.com

OFFICE OF THE CLERK
SUPREME COURT, U.S:

